No.
IN THE
SUPREME COURT OF THE UNITED STATES
DOUGLAS KELLY, PETITIONER
vs
UNITED STATES OF AMERICA, RESPONDENT

PROOF OF SERVICE
The undersigned hereby certifies that on this date I have served the enclosed
Motion For Leave To Proceed In Forma Pauperis and Petition For A Writ Of
Certiorari on each party to the above proceeding or that party’s counsel and on
every other person required to be served, in the manner indicated, addressed as
follows:
VIA EMAIL:
Michael Consiglio, Esquire
Assistant U.S. Attorney
michael.consiglio@usdoj.gov
VIA OVERNIGHT MAIL:
Elizabeth Prelogar, Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

s/Richard F. Maffett, Jr.
Richard F. Maffett, Jr., Esquire
Attorney for Petitioner Douglas Kelly

